No. ______
IN THE

Supreme Court of the United States
EXPENSIFY, INC.,
v.
EDDIE WHITE

Petitioner,

Respondent,

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Case No. 19–17320

PETITION FOR WRIT OF CERTIORARI
Glenn A. Danas*
ROBINS KAPLAN LLP
2049 Century Park East
Suite 3400
Los Angeles, CA 90067
310-552-0130
gdanas@robinskaplan.com

* Counsel of Record

Steven C. Carlson
Kevin M. Pasquinelli
ROBINS KAPLAN LLP
2006 Kala Bagai Way Suite 22
Berkeley, CA 94704
650–784–4040
scarlson@robinskaplan.com
kpasquinelli@robinskaplan.com

Counsel for Petitioner Expensify, Inc.

QUESTION PRESENTED
This action originated from a threatened
lawsuit under the Americans with Disabilities Act.
Because the threatened suit involved claims that were
not legally cognizable, Expensify filed an action for
declaratory judgment seeking a declaration of nonliability and nominal damages.
However, the
defendants executed waivers of their claims and
moved to dismiss, arguing that the case was now moot.
The district court agreed, despite Expensify’s still-live
claim for nominal damages and the threat of
Respondent’s counsel suing Expensify on behalf of
other class representatives, and dismissed the action.
The Ninth Circuit affirmed, relying on Bayer v.
Neiman Marcus Grp., Inc., 861 F.3d 853 (9th Cir.
2017), holding that Expensify’s claims did not
implicate its “dignitary interests” or “important
rights,” and therefore nominal damages were
unavailable. However, after the Ninth Circuit entered
judgment, this Court decided Uzuegbunam v.
Preczewski, 141 S. Ct. 792 (2021), holding that every
violation of a right entitles the injured party to
nominal damages.
(No. 17,322) The question presented is whether

Uzuegbunam merits summarily granting the petition,

vacating the judgment, and remanding to determine
whether the Ninth Circuit’s holding, which took a
narrow view of the availability of nominal damages, is
inconsistent with this Court’s intervening precedent,
which took a substantially broader view of nominal
damages.

i

PARTIES TO THE PROCEEDINGS
All parties to this proceeding are identified in
this petition’s caption.

CORPORATE DISCLOSURE STATEMENT
Under Rule 29.6, Petitioner Expensify discloses
that it has no parent corporation, and no publicly held
company owns 10 percent or more of its stock.

ii

TABLE OF CONTENTS
QUESTION PRESENTED ..................................... i
PARTIES TO THE PROCEEDINGS ................... ii
CORPORATE DISCLOSURE STATEMENT ...... ii
INTRODUCTION .................................................. 1
OPINIONS BELOW .............................................. 3
JURISDICTION .................................................... 4
STATUTORY PROVISIONS INVOLVED ............. 5
STATEMENT ......................................................... 6
I.

Background Facts ..................................... 6

II. Procedural History .................................... 8
A. Expensify Files a Declaratory
Judgment Action in its Local
Federal Court................................. 8
B. The District Court Dismisses the
Action on Mootness Grounds,
Finding No Basis for Nominal
Damages ........................................ 9
C. The Ninth Circuit Affirms Finding
Expensify Lacked “Dignitary
Interests” or “Important Rights”
Sufficient to Award Nominal
Damages ...................................... 10
REASONS TO GRANT THE WRIT .................... 12
I.

The Ninth Circuit’s Decision Rests on a
View of Nominal Damages at odds with
Uzuegbunam ........................................... 12

iii

II. An Order Granting Certiorari, Vacating,
and Remanding is Appropriate in this
Case ......................................................... 14
CONCLUSION .................................................... 16
CERTIFICATE OF COMPLIANCE .................. 17
CERTIFICATE OF SERVICE ............................. 18
APPENDIX
Appendix A: Memorandum Opinion of the United
States Court of Appeals for the Ninth Circuit
(December 11, 2020) ............................................ 1a
Appendix B: Judgment of the United States
District court for the Northern District of
California ............................................................. 5a
Appendix C: Order Granting Motion to Dismiss
with Prejudice of the United States District court
for the Northern District of California ............... 6a
Appendix D: Expensify, Inc.’s Complaint for
Declaratory Judgment ....................................... 22a
Appendix E: Excerpt Exhibits to Declaration of
Kevin Tucker in Support of Defendant’s Motion
to Dismiss Complaint ........................................ 63a
Appendix F: Excerpt Transcript of proceedings
held on 9/18/2019 (Defendant's Motion to Dismiss
Complaint........................................................... 70a

iv

TABLE OF AUTHORITIES
Page(s)
Cases

Bayer v. Neiman Marcus Grp., Inc.,

861 F.3d 853 (9th Cir. 2017) .......... 10, 11, 12, 13

Lawrence v. Chater,

516 U.S. 163 (1996) ........................................... 14

Uzuegbunam v. Preczewski,

141 S. Ct. 792 (2021) ................................. passim

Webb v. Portland Mfg., Co.,

29 F. Cas. 506 (CC Me. 1838)............................ 13

Statutes
42 U.S.C. § 12182(a) ................................................. 5
42 U.S.C. § 12188...................................................... 8
42 U.S.C. § 12205...................................................... 5
Other Authorities
http://www.expensify.com......................................... 6

v

Expensify, Inc. respectfully petitions this Court
for writ of certiorari to review the judgment of the
United States Court of Appeals for the Ninth Circuit.

INTRODUCTION
This case concerns a party’s ability to pursue
nominal damages via a declaratory judgment action
notwithstanding the would-be plaintiff ’s voluntary
waiver of his claim. Faced with multiple threats of
being sued for objectively meritless disability
discrimination claims, Expensify sought declaratory
relief in its local district court. Attempting to moot
Expensify’s action, the potential class action
representatives voluntarily waived their claims and
moved to dismiss the action. Expensify argued that its
interest in a declaration of non-liability, and the peace
that comes with it, was a sufficient basis for an award
of nominal damages and thus for staving off mootness.
The lower court disagreed, finding Expensify’s
interests insufficient for nominal damages, and
therefore upheld dismissal of the action.

However, after the Ninth Circuit issued its
decision affirming dismissal of Expensify’s action, this
Court issued its decision in Uzuegbunam v.
Preczewski, 141 S.Ct. 792 (2021). Uzuegbunam
provides a much broader view of nominal damages
than the court below. While the court below held that
nominal damages are categorically unavailable to a
defendant in an ADA action seeking to vindicate its
rights, and are instead reserved for violations of
certain “dignitary interests,” Uzuegbunam reasoned

1

that nominal damages are available for any legal
injury.
The lower court’s decision is at odds with
Uzuegbunam. If nominal damages are available for
any legal injury, then they should have been available
to Expensify. Therefore, the Court should grant
certiorari, vacate the lower court’s judgment, and
remand the case so the lower court can revisit
Expensify’s entitlement to nominal damages in light of
Uzuegbunam.

2

OPINIONS BELOW
The December 11, 2020 opinion of the Ninth
Circuit Court of Appeals is reported at 831 Fed. Appx.
268–270 (9th Cir. 2020).
The October 18, 2019 order of the United States
District Court for the Northern District of California
on Defendants’ 1 motion to dismiss is unreported. 2019
WL 5295064.

1 There were initially two defendants in this suit, Eddie
White and Matt Kolesar. The parties entered a stipulation
dismissing Matt Kolesar, however, before the district court’s
ruling on the motion to dismiss.

3

JURISDICTION
The United States Court of Appeals for the
Ninth Circuit entered its opinion and judgment in this
case on December 11, 2020. App. 1a.
On March 19, 2020, the Court extended the 90day deadline for filing petitions for certiorari by 60
days, to 150 days from the lower court judgment, order
denying discretionary review, or order denying a
timely petition for rehearing. This petition is timely
under the extended deadline.
This Court has jurisdiction over this case under
28 U.S.C. § 1254(1).

4

STATUTORY PROVISIONS INVOLVED
42 U.S.C. § 12182(a) provides:
(a)GENERAL RULE
No individual shall be discriminated against on the
basis of disability in the full and equal enjoyment of
the goods, services, facilities, privileges, advantages,
or accommodations of any place of public
accommodation by any person who owns, leases (or
leases to), or operates a place of public accommodation.
42 U.S.C. § 12205 provides:
In any action or administrative proceeding commenced
pursuant to this chapter, the court or agency, in its
discretion, may allow the prevailing party, other than
the United States, a reasonable attorney’s fee,
including litigation expenses, and costs, and the
United States shall be liable for the foregoing the same
as a private individual.

5

STATEMENT
I.

Background Facts

Expensify offers services that automate expense
reporting through its website 2 and through software
applications available for Apple (iOS) and Google
(Android) mobile devices. Expensify’s services are not
accessible through brick and mortar retail or
commercial locations, but rather for public use
exclusively through Expensify’s website and mobile
application.
Carlson Lynch LLP (the “CL Firm”) is a leading
filer of lawsuits under the ADA. App. 26a. For
instance, press reports state that the CL Firm has filed
dozens of ADA cases in front of a single judge in the
Western District of Pennsylvania. App. 55a. (“All told,
about 40 nearly identical cases have landed in front of
the same federal judge, Arthur Schwab, all brought by
one local law firm, Carlson Lynch Sweet Kilpea &
Carpenter LLP.”).
The CL Firm began this case by sending
Expensify a threatening letter on behalf of two
purportedly visually impaired individuals, Mr. Eddie
White and Mr. Matt Kolesar, dated February 27, 2019.
In the letter, the CL Firm threatened to sue Expensify
for its alleged failure to comply with the ADA,
California’s Unruh Act, and Pennsylvania’s Human
Relations Act (PHRA), by not making its website
sufficiently accessible to the visually impaired. App.
11a. The CL Firm further threatened to sue Expensify
2

http://www.expensify.com

6

in Pennsylvania federal court, on behalf of a
nationwide class, and seeking statutory damages
under California law. App. 11a.
Expensify, on March 18, 2019, responded to the
CL Firm’s initial missive, explaining that, as an
Internet-only business based in California and
Oregon, it complied fully with the governing law of its
home jurisdiction. App. 47a.
On March 23, 2019, the CL Firm responded,
doubling-down on its initial threat, and highlighting
its litigation success in bringing similar claims in
jurisdictions outside the Ninth Circuit:
In the last several years, our firm has
overcome the “public accommodation”
argument you raise. Attached is a 2018
decision from the W.D.Pa., where we
will likely file the matter if necessary,
confirming your client’s website
constitutes a “public accommodation”
under the ADA. See Suchenko v. Ecco
USA, Inc., 2018 WL 3933514 (W.D. Pa.
Aug. 16, 2018) [quotation omitted].
Alternatively, we also file “websiteonly” cases in the D.Mass. and D.N.H.
I have attached decisions from some of
these cases as well. In each case, the
forum court exercised jurisdiction (and
its Circuit’s law re what constitutes a
public accommodation) over the out-offorum website operator.

7

In light of the above, we have been
retained to contact Expensify about its
inaccessible mobile applications and to
resolve our clients’ discrimination
claims in a confidential settlement
agreement, or litigation. . .
Below is a link to one recent courtapproved class settlement between
NFB and Uber, in which Uber agreed
to pay almost $300,000 for compliance
monitoring of the ADA policies relating
to its ride-share application. The Court
also awarded NFB almost $2.5 million
in fees.
App. 68a.

II.

Procedural History
A.

Expensify Files a Declaratory
Judgment Action in its Local Federal
Court

Reasonably believing that it was about to be
sued in a federal court across the country, Expensify
filed a declaratory judgment action in its local federal
district court seeking to establish that it does not
discriminate against the blind. On April 8, 2019,
Expensify sued Messrs. White and Kolesar in the
United States District Court for the Northern District
of California. App. 22a.
In its complaint, Expensify invoked federal
jurisdiction under the ADA, 42 U.S.C. § 12188, and
sought a declaratory judgment that it did not violate

8

the ADA, Unruh Act or PHRA because its services
were offered exclusively through the Internet, not
through brick-and-mortar stores. App. 23-24a, 30-32a.
Further, Expensify alleged that the CL Firm is a serial
filer of ADA claims, and is part of what the Wall St.
Journal referred to as a national wave of “website
accommodation ADA litigation” seeking quick
settlements going primarily to attorneys’ fees. App.
26a. Expensify described the CL Firm’s pre-complaint
threats sent to Expensify, (App. 25a), and sought its
attorneys’ fees and costs. App. 32a.
Soon after Expensify filed its action, White and
Kolesar unilaterally executed covenants not to sue,
and sent releases related to their threatened claims to
Expensify.
App. 63-67a.
The two individual
defendants then moved to dismiss Expensify’s suit,
arguing that the voluntary covenants rendered the
action moot.
Expensify argued that Messrs. White and
Kolesar’s voluntary waiver of their claims did not
render the action moot because it provided no
protection against the CL Firm simply filing a new
action against Expensify on behalf of other
individuals, in a jurisdiction across the country. App.
70a.

B.

The District Court Dismisses the Action
on Mootness Grounds, Finding No
Basis for Nominal Damages

Citing the numerous pre-litigation threats
Expensify had received, combined with the CL Firm’s
specialization in filing website accommodation ADA
class actions, the district court agreed that Expensify
had a “real and reasonable apprehension that

9

defendants would sue it,” and therefore that a
cognizable controversy existed when Expensify filed
the action. App. 10a.
However, the district court reasoned that White
and Kolesar’s individual, voluntary covenants mooted
Expensify’s action. App. 14a. Recognizing that a “live
claim for nominal damages will prevent dismissal for
mootness,” App. 19a (citing Bayer v. Neiman Marcus
Grp., Inc., 861 F.3d 853, 869 (9th Cir. 2017)), the
district court held that Bayer’s holding limited
nominal damages to plaintiffs with a “special interest.”
App. 19a. Bayer involved an ADA plaintiff ’s claim.
This, the Ninth Circuit had held, implicated a
“dignitary interest” worthy of nominal damages, and
therefore a live dispute staving off mootness. Bayer,
861 F.3d at 873-74. The district court found that
Expensify’s interest in not being subject to the CL
Firm’s continuing litigation threats was not, however,
an interest that could support nominal damages under
Bayer. App. 19-20a. Therefore, the district court
granted the motion to dismiss and entered judgment
against Expensify. App. 5a.

C.

The Ninth Circuit Affirms Finding
Expensify Lacked “Dignitary Interests”
or “Important Rights” Sufficient to
Award Nominal Damages

On December 11, 2020, the Ninth Circuit
affirmed. Relying on Bayer v. Neiman Marcus, the
Ninth Circuit agreed with the district court that
nominal damages are available only for the vindication
of “dignitary interests” or important rights.” 831 Fed.
Appx. at 270. The Ninth Circuit further agreed that
Expensify’s right to be free from accusations of

10

disability discrimination was not an affront to
Expensify’s dignitary interests for which nominal
damages might be available. Id. Concluding that
Expensify had failed to identify any “special interest”
that might support nominal damages, the Ninth
Circuit found that the district court had properly
dismissed the action as moot.

11

REASONS TO GRANT THE WRIT
I.

The Ninth Circuit’s Decision Rests on a View
of Nominal Damages at odds with

Uzuegbunam

The Ninth Circuit affirmed dismissal of
Expensify’s complaint based on a narrow view of
nominal damages. The lower court relied primarily on
Bayer v. Neiman Marcus Grp., Inc., 861 F.3d 853, 869
(9th Cir. 2017). In Bayer, Neiman Marcus attempted
to impose on its employees a mandatory arbitration
agreement. Plaintiff Tayler Bayer refused to sign the
agreement, and instead filed a charge with the EEOC
alleging that Neiman Marcus was interfering with his
rights under the ADA by imposing a mandatory
arbitration agreement. See id. at 860-61. However, the
EEOC delayed six years in issuing Bayer’s right-to-sue
letter on the arbitration agreement-related charge. Id.
By that time, Bayer had long since been terminated.
Bayer sued Neiman Marcus, seeking damages,
injunctive relief, declaratory relief (regarding the
illegality of the arbitration agreement), and attorney
fees and costs. Id. at 861. The district court dismissed
Bayer’s second complaint as moot, reasoning that it
could not grant effective relief to Bayer since he was
no longer employed by Neiman Marcus. Id.
The Ninth Circuit reversed, ruling that the
district court could have awarded Bayer nominal
damages as a form of equitable relief under the ADA.
The Bayer court characterized nominal damages as
“trifling” and “symbolic.” Bayer, 861 F.2d at 872.
However, the Bayer court also found that nominal
damages may be legal or equitable in nature,
concluding that in Mr. Bayer’s situation, an award of

12

nominal damages was properly equitable. Bayer, 861
F.3d at 874 (finding “that ‘complete justice’ may
require the district court to award nominal damages
as equitable relief.”).
The Ninth Circuit in this case read Bayer as
placing a categorical limitation on the award of
nominal damages to a party asserting discrimination
under the ADA, excluding a potential defendant
seeking declaratory relief regarding ADA claims from
entitlement to nominal damages. See Expensify, 831
Fed. Appx. at 270. Because Expensify was not an ADA
plaintiff, the Ninth Circuit reasoned, it could not have
the requisite “dignitary interests” to justify an award
of nominal damages.
The Ninth Circuit’s view of nominal damages is
odds with this Court’s recent decision in
Uzuegbunam. In its analysis of nominal damages, the
Court in Uzuegbunam noted that courts at common
law “reasoned that every legal injury necessarily
causes damage” for which nominal damages are
available. Uzuegbunam, 141 S.Ct. at 798 (emphasis in
original). Likewise, the Court approvingly quoted
Justice Story, who had explained that nominal
damages are available “whenever there is a wrong,”
irrespective of whether the relief is prospective or
retrospective. Id. at 799 (quoting Webb v. Portland
Mfg., Co., 29 F. Cas. 506, 508-509 (CC Me. 1838) (No.
17,322)). Moreover, the Court expressly rejected the
notion, relied on by the Ninth Circuit in Bayer, that
nominal damages “are purely symbolic,” or “a mere
judicial token.” Uzuegbunam, 141 S.Ct. at 800-801
(referring to that view as a “flawed premise”).
at

13

In the instant case, the district court and the
Ninth Circuit relied on the categorical unavailability
of nominal damages to a potential defendant under the
ADA to conclude that Expensify’s action was moot.
However, this was based on the false premise that
nominal damages are available only for certain
exceptional rights, rather than being available for all
legal violations as a default, as explained by the Court
in Uzuegbunam. Expensify argued below that it was
subjected to threats of baseless discrimination
litigation, and that these threats are ongoing given
that they are driven by the CL Firm, not by the
individual potential plaintiffs who voluntarily waived
their claims. Whether the ongoing threat of baseless
litigation is a violation of Expensify’s rights, therefore,
should be determined on remand in light of
Uzuegbunam.

II.

An Order Granting Certiorari, Vacating, and
Remanding is Appropriate in this Case

Because the Ninth Circuit issued its opinion
without the benefit of Uzuegbunam, the Court should
issue a GVR here. As this Court has recognized,
“[w]here intervening developments, or recent
developments that we have reason to believe the court
below did not fully consider, reveal a reasonable
probability that the decision below rests upon a
premise that the lower court would reject if given the
opportunity for further consideration, and where it
appears that such a redetermination may determine
the ultimate outcome of the litigation, a GVR order
is ... potentially appropriate.” Lawrence v. Chater, 516
U.S. 163, 167 (1996).

14

Uzuegbunam

is plainly an “intervening
development” within the meaning of Lawrence. The
Ninth Circuit’s decision in this case affirming
dismissal of Expensify’s action issued on December 11,
2020; the court then issued its mandate, terminating
jurisdiction over the case, on January 4, 2021.
Because this Court issued its decision in Uzuegbunam
v. Preczewski, 141 S. Ct. 792 (2021) on March 8, 2021,
the Ninth Circuit had no opportunity to consider it
while this case was pending before it.

15

CONCLUSION
This petition for writ of certiorari should be
granted, the judgment below vacated, and the case
remanded for further consideration in light of
Uzuegbunam v. Preczewski.
Respectfully submitted,
Glenn A. Danas

Counsel of Record

ROBINS KAPLAN LLP
2049 Century Park E., Suite 3400
Los Angeles CA 90067
310-229-5410
gdanas@robinskaplan.com
Steven C. Carlson
Kevin M. Pasquinelli
2006 Kala Bagai Way Suite 22
Berkeley, CA 94704
650–784–4040
scarlson@robinskaplan.com
kpasquinelli@robinskaplan.com

Counsel for Petitioner Expensify, Inc.
May 10, 2021

16

CERTIFICATE OF COMPLIANCE
I hereby certify that the accompanying Petition
for Writ of Certiorari complies with the word count
limitations of Supreme Court Rule 33(g) in that it
contains 2,507 words, utilizing Microsoft Word 2016,
including footnotes and excluding material not
required to be counted by Rule 33(d).
Respectfully submitted,
Glenn A. Danas

Counsel of Record

17

CERTIFICATE OF SERVICE
I, Glenn Danas, counsel for Petitioner Expensify,
Inc., hereby certify that on this 10th day of May 2021,
I caused a copy of the Petition for Writ of Certiorari to
be served via US Mail on the following counsel:
Jamisen A. Etzel
R. Bruce Carlson
CARLSON LYNCH, LLP
1133 Penn Avenue, 5th Floor
Pittsburgh, PA 15222
412-322-9243

Attorneys for Eddie White
Glenn A. Danas

Counsel of Record

18

(2 of 9)
Case: 19-17320, 12/11/2020, ID: 11923884, DktEntry: 43-1, Page 1 of 4

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
DEC 11 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
EXPENSIFY, INC.,

No.

Plaintiff-Appellant,

U.S. COURT OF APPEALS

19-17320

D.C. No. 4:19-cv-01892-PJH

v.
MEMORANDUM*
EDDIE WHITE,
Defendant-Appellee,
and
MATT KOLESAR,
Defendant.
Appeal from the United States District Court
For the Northern District of California
Phyllis J. Hamilton, District Judge, Presiding
Submitted December 8, 2020**
San Francisco, California
Before: BOGGS,*** M. SMITH, and BENNETT, Circuit Judges.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

1a

(3 of 9)
Case: 19-17320, 12/11/2020, ID: 11923884, DktEntry: 43-1, Page 2 of 4

Expensify, Inc. appeals a district-court ruling granting a motion to dismiss its
suit for declaratory judgment against Eddie White and Matt Kolesar (“the
Defendants”).

Expensify, an internet-only company, sued the Defendants in

response to communications from the Defendants’ counsel alleging that Expensify’s
website and mobile applications discriminated against blind users. The Defendants
had stated that a lack of accessibility violated three civil-rights statutes, including
the Americans with Disabilities Act, 42 U.S.C. §§ 12181–12189 (“ADA”).
Expensify sought a declaration that it did not violate the statutes.
In response to the complaint, the Defendants each executed a “Release and
Waiver of Claims” that included irrevocable and unconditional covenants not to sue
Expensify regarding the accessibility of its products. The Defendants then moved
to dismiss the action for lack of subject-matter jurisdiction under Federal Rule of
Civil Procedure 12(b)(1). The district court ruled that it had jurisdiction at the outset
of the case but, finding that the waivers mooted the action, granted the motion.1
Expensify, Inc. v. White, No. 19-CV-01892-PJH, 2019 WL 5295064, at *3–8 (N.D.
Cal. Oct. 18, 2019).

***

The Honorable Danny J. Boggs, United States Circuit Judge for the
U.S. Court of Appeals for the Sixth Circuit, sitting by designation.
1

Before the ruling, the parties entered a stipulation voluntarily dismissing Kolesar.
2a

(4 of 9)
Case: 19-17320, 12/11/2020, ID: 11923884, DktEntry: 43-1, Page 3 of 4

On appeal, Expensify argues that the district court erred by holding that it had
no right to nominal damages, and therefore its case was moot. Because there was
no error, we AFFIRM the district court’s dismissal.
The district court properly found—and the parties do not dispute on appeal—
that subject-matter jurisdiction existed when Expensify filed the complaint. We
review de novo the motion to dismiss for lack of subject-matter jurisdiction. See US
West, Inc. v. Nelson, 146 F.3d 718, 721 (9th Cir. 1998).
1. A jurisdiction-providing controversy must exist at all stages of review, not
merely when a party files its complaint. See Already, LLC v. Nike, Inc., 568 U.S.
85, 90–91 (2013). “A case becomes moot,” and a controversy ceases to exist, when
“the parties lack a legally cognizable interest in the outcome.” Id. at 91 (quoting
Murphy v. Hunt, 455 U.S. 478, 481 (1982) (per curiam)). There is an exception if
the wrongful behavior can reasonably be expected to recur, but an unconditional and
irrevocable covenant not to sue can preclude that possibility. See id. at 92–93.
2. A case is not moot if effective relief remains available, such as nominal
damages. Bayer v. Neiman Marcus Grp., Inc., 861 F.3d 853, 862, 868 (9th Cir.
2017). “A live claim for nominal damages will prevent dismissal for mootness.”
Ibid. (quoting Bernhardt v. Cnty. of Los Angeles, 279 F.3d 862, 872 (9th Cir. 2002)).
3. The waivers signed by the Defendants mooted the action. The waivers
were nearly identical to those evaluated in Already, LLC v. Nike, Inc., 568 U.S. 85,

3a

(5 of 9)
Case: 19-17320, 12/11/2020, ID: 11923884, DktEntry: 43-1, Page 4 of 4

93 (2013), which were found to moot the case and preclude the possibility of future
suits. Because the Defendants waived their right to bring a claim against Expensify
in the future, there was no longer a live controversy and the court ceased to have
subject-matter jurisdiction. See id. at 93–96, 101–02.
4. Expensify’s argument that its claim for nominal damages kept its complaint
alive is misplaced. Nominal damages were not proper because Expensify does not
seek to vindicate dignitary interests nor important rights. See Bayer, 861 F.3d at
874. Private accusations that Expensify may have violated another person’s civil
rights is not an affront to Expensify’s dignitary interests. While nominal damages
may be available for some ADA claims seeking to redress dignitary harms,
Expensify is not a plaintiff bringing a suit under the ADA, but a potential ADA
defendant seeking declaratory relief.
Accordingly, we agree with the district court that there are no special interests
or legal authorities supporting Expensify’s claim for nominal damages. Expensify’s
complaint against White is moot and therefore it was properly dismissed.
AFFIRMED.

4a

Case:
19-17320, 05/26/2020,
ID: 11701531,
DktEntry:
16, Page
Case 4:19-cv-01892-PJH
Document
33 Filed
10/18/19
Page41ofof77
1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA

EXPENSIFY, INC.,

Case No. 19-cv-01892-PJH

Plaintiff,
v.

JUDGMENT

EDDIE WHITE,
Defendant.

The issues having been duly heard and the court having dismissed the complaint
with prejudice,
it is Ordered and Adjudged
that plaintiff takes nothing, and that the action is dismissed with prejudice.
IT IS SO ORDERED.
Dated: October 18, 2019
/s/ Phyllis J. Hamilton
PHYLLIS J. HAMILTON
United States District Judge

5a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 1 of 16

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA

EXPENSIFY, INC.,

Case No. 19-cv-01892-PJH

Plaintiff,
v.

ORDER GRANTING MOTION TO
DISMISS WITH PREJUDICE

EDDIE WHITE,

Re: Dkt. No. 22

Defendant.

Defendants Eddie White’s (“defendant White”) and Matt Koleslar’s (“defendant
Koleslar”) (collectively, “defendants”) motion to dismiss plaintiff Expensify, Inc’s
(“plaintiff”) complaint for declaratory relief came on for hearing before this court on
September 18, 2019. Plaintiff appeared through its counsel, Steven Carlson and Kevin
Pasquinelli. Defendants appeared through their counsel, Kevin Tucker. Having read the
papers filed by the parties and carefully considered their arguments and the relevant
legal authority, and good cause appearing, the court hereby GRANTS defendants’ motion
to dismiss with prejudice for the following reasons.
BACKGROUND
On April 8, 2019, plaintiff filed this action for declaratory relief under Title 28 U.S.C.
§ 2201 against defendants. Dkt. 1 (“Compl.”). In it, plaintiff requests that the court make
three legal determinations concerning the compliance of its website and mobile
applications with certain requirements under the Americans with Disabilities Act (“ADA”),
California Unruh Act (the “Unruh Act”), and Pennsylvania’s Human Relations Act
(“PHRA”). Those requests include the following:
•

Plaintiff’s website and mobile applications are not places of public
6a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 2 of 16

accommodation within the meaning of the ADA and therefore do not violate
the ADA, Compl. ¶ 30;
•

Plaintiff’s website and mobile applications are not places of public
accommodation within the meaning of the Unruh Act, plaintiff has not
intentionally discriminated in its website, and therefore, plaintiff does not
violate the Unruh Act, id. ¶ 36; and

•

Defendants have not exhausted their administrative remedies against
plaintiff before Pennsylvania’s administrative Human Rights Commission
(the “PHRC”) and therefore any claim under the PHRA in this court is not
ripe, id. ¶ 40.

Further detail of the complaint’s relevant allegations, as well as post-filing events,
is further detailed below.
A. The Complaint’s Allegations
Plaintiff is a Delaware corporation “with principal places of business in San
Francisco, California and Portland, Oregon.” Compl. ¶ 7. Plaintiff alleged personal
jurisdiction as to defendant White given his California residency, id. ¶ 4, and defendant
Koleslar on grounds that he purposefully conducted activities in California, id. ¶ 5.
In its complaint, plaintiff alleges that defendants asserted that plaintiff violates the
ADA, the Unruh Act, and the PHRA by failing to accommodate the needs of the visually
impaired via its website and mobile applications. Compl. ¶ 2. Citing case law, plaintiff
explains how such purported assertions by defendants would not constitute legally
cognizable claims in California. Id. ¶¶ 2, 18-25. Plaintiff’s basic positions are threefold:
(1) Plaintiff’s website services do not qualify as a place of public accommodation
(bringing it within the purview of the ADA’s requirements) because controlling
Ninth Circuit authority has ruled that a business operated website qualifies as a
place of public accommodation only if the allegedly discriminatory conduct has
a nexus to the goods and services offered at a physical location, id. ¶¶ 11, 18;
(2) In their prelitigation communications, defendants failed to assert any facts
7a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 3 of 16

showing the intentional discrimination necessary to state a claim under the
Unruh Act, id. ¶ 23; and
(3) There has been no exhaustion of the administrative remedies necessary to
initiate a claim under the PHRA, id. ¶ 24.
With respect to its compliance with the ADA, plaintiff expressly acknowledges that
“[c]ircuit courts are split on whether websites, and associated mobile applications which
access those websites, constitute a place of public accommodation as requirement by
the ADA.” Compl. ¶ 18. Later revealed in the parties’ prelitigation communications,
various courts in Pennsylvania, New Hampshire, and Massachusetts take a position on
this issue contrary to that adopted by the Ninth Circuit.
At the heart of the initial jurisdictional inquiry in this matter are those same
prelitigation communications. Prior to plaintiff’s initiation of this action, the parties
exchanged four relevant sets of written communications concerning the subject matter of
plaintiff’s requests. Those communications include the following:
(1) a February 27, 2019 letter from defense counsel to plaintiff, Compl., Ex. 2;
(2) a March 18, 2019 letter from plaintiff’s counsel to defendants, Compl., Ex. 3;
Dkt. 22-2, Ex. 3;
(3) a March 23, 2019 email from defense counsel to plaintiff, Compl. ¶ 17; Dkt.
22-2, Ex. 4; and
(4) an early April 2019 email string between counsel, Dkt. 22-2, Ex. 5.
A detailed description of key statements made in each of these communications
appears in the analysis sections below.
B. Relevant Post-Complaint Events
On May 15, 2019, about a month after plaintiff filed its complaint, defendants sent
plaintiff a letter purportedly confirming that they waived their respective rights to sue
plaintiff regarding whether its website/mobile applications violate the ADA, Unruh Act, or
PHRA. Dkt. 22-1 ¶ 7; Dkt. 22-2, Ex. 6. On June 19, 2019, defendants both executed a
“Release and Waiver of Claims” (the “waiver”) containing a Covenant Not to Sue (the
8a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 4 of 16

“covenant”) detailing substantially the same guarantee as that detailed in their May 15,
2019 letter. Dkt. 22-1 ¶ 3; Dkt. 22-2, Ex. 2. The exact language of the waivers is further
discussed in the analysis section below.
On July 25, 2019, White and Koleslar filed this motion to dismiss. Dkt. 22. Prior to
its briefing, on August 21, 2019, the parties entered a stipulation of voluntary dismissal of
defendant Koleslar without prejudice. Dkt. 28. Remaining defendant White premises his
motion to dismiss on a lack of federal subject matter jurisdiction for want of a justiciable
controversy.1
DISCUSSION
A. Legal Standard
A federal court may dismiss an action under Federal Rule of Civil Procedure
12(b)(1) for lack of federal subject matter jurisdiction. Fed. R. Pro. 12(b)(1). “Article III of
the United States Constitution limits the jurisdiction of the federal courts to ‘cases’ and
‘controversies,’” Bayer v. Neiman Marcus Group, Inc., 861 F. 3d 853, 861 (9th Cir. 2017)
(citation omitted), and the Declaratory Judgment Act applies only in “a case of actual
controversy,” 28 U.S.C. § 2201. To determine the existence of a cognizable controversy
within the meaning of the Declaratory Judgment Act, courts must determine “whether the
facts alleged, under all the circumstances, show that there is a substantial controversy,
between the parties having adverse legal interests, of sufficient immediacy and reality to
warrant the issuance of a declaratory judgment.” Maryland Cas. Co. v. Pac. Coal & Oil
Co., 312 U.S. 270, 272 (1941). In the Ninth Circuit, “if the defendant’s actions cause the
plaintiff to have a ‘real and reasonable apprehension that he will be subject to liability,’
the plaintiff has presented a justiciable case or controversy.” Spokane Indian Tribe v.
United States, 972 F.2d 1090, 1092 (9th Cir. 1992) (citation omitted). Because “[a]
Defendants’ motion originally included a Rule 12(b)(2) challenge for want of personal
jurisdiction over then-defendant Koleslar. That challenge was limited to defendant
Koleslar. Given his dismissal from this action, the court need not rule on defendant
Koleslar’s unique challenge to this court’s personal jurisdiction over him. As a result, the
only remaining challenge by defendant White is based on Rule 12(b)(1).
1

9a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 5 of 16

federal court is presumed to lack jurisdiction in a particular case unless the contrary
affirmatively appears,” the burden to prove its existence “rests on the party asserting
federal subject matter jurisdiction.” Pac. Bell Internet Servs. v. Recording Indus. Ass'n of
Am., Inc., 2003 WL 22862662, at *3 (N.D. Cal. Nov. 26, 2003).
A federal court loses its authority to rule on the legal questions presented in a
declaratory action if events following its commencement render it moot. Arizonans for
Official English v. Arizona, 520 U.S. 43, 67 (1997) (“An actual controversy must be extant
at all stages of review, not merely at the time the complaint is filed.”). “A case is moot
when the issues presented are no longer ‘live’ or the parties lack a legally cognizable
interest in the outcome.” City of Erie v. Pap’s A.M., 529 U.S. 277, 287 (2000). To
determine whether an action has been rendered moot, courts in the Ninth Circuit examine
whether changes in the circumstances existing when the action was filed have forestalled
any meaningful relief. West v. Secretary of Dept. of Transp., 206 F.3d 920, 925 n.4 (9th
Cir. 2000).
B. Analysis
The court finds that a cognizable controversy existed at the time plaintiff initiated
its complaint. However, the court further finds that defendants’ waivers mooted that
action and that neither the voluntary cessation nor capable of repetition yet evading
review limitation on mootness applies here. The court also finds that plaintiff has not
stated a claim for nominal damages that remains actionable and that any attempt by
plaintiff to amend its complaint to salvage the justiciability of this action would be futile.
1. A Cognizable Controversy Existed When Plaintiff Initiated This Action
Plaintiff carried its burden to show that a cognizable controversy existed when it
initiated this action. The circumstances surrounding the prelitigation events here support
finding a real and reasonable apprehension that defendants would sue it. Those
circumstances include defense counsel’s prelitigation communications, reputation, and
specialized practice.
In their initial February 27, 2019 letter to plaintiffs, defendants include the following
10a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 6 of 16

statements suggesting that they would sue plaintiff for its failure to comply with the ADA,
Unruh Act, and PHRA:
•

“Our clients contend you have violated several statutes that prohibit disability
discrimination, including inter alia, California’s Unruh Civil Rights Act . . . the
Pennsylvania Human Relations Act . . . and the Americans with Disabilities Act,”
Compl., Ex. 2; Dkt. 22-2, Ex. 1 (emphasis added);

•

“Failure to remediate these deficiencies will subject you to suit in Pennsylvania
federal court, and potentially, to California’s statutory damages on a class
basis,” id. (emphasis added);

•

“Our clients also request, on behalf of all similarly situated individuals in the
United States, that you adopt a policy that protects against such disability
discrimination,” id. (emphasis added).
These statements, even though subtle, signal to plaintiff key aspects of what

potential litigation against it would look like. Additionally, the fact that defendants’ letter
includes a 14-day window to respond, id., and carbon copies a Carlson Lynch lawyer
“licensed to practice in CA,” id., serves as additional indicia of the typical threats
preceding litigation.
Additionally, numerous statements in defendants’ March 23, 2019 email2 to
plaintiff further support a real and reasonable apprehension by plaintiff that defendants
intended to sue it. Those statements include the following:
•

“In the last several years, our firm has overcome the ‘public accommodation’
argument you raise,” Compl., ¶ 17; Dkt. 22-2, Ex. 4;

•

“Attached is a 2018 decision from W.D.Pa., where we will likely file the matter if
necessary . . .,” Dkt. 22-2, Ex. 4 (emphasis added);

•

“Alternatively, we also file ‘website-only’ cases in the D.Mass and D.N.H.,” id.

2

Defense counsel labeled its email a Federal Rule of Evidence 408 communication but
nonetheless attached it (in its entirety) to defendants’ opening brief. As a result,
defendants have waived any argument that such communication is privileged.
11a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 7 of 16

(emphasis added);
•

“In light of the above, we have been retained to contact Expensify about its
inaccessible mobile applications and to resolve our clients’ discrimination claims in
a confidential settlement agreement, or litigation,” id. (emphasis added);

•

“In addition to the costs our clients have incurred to date, they seek compensation
for compliance monitoring, to which our firm contends they would be entitled as a
prevailing party upon filing suit,” id. (emphasis added);

•

“By resolving this matter before litigation, it is our designed goal to eliminate the
litigation-related fee award entirely and reduce the monitoring costs significantly,”
id.
Again, while none of these communications overtly state that defendants would file

suit against plaintiff, they either imply or assume the possibility of such suit. Moreover,
the fact that defense counsel attached numerous judicial decisions as PDFs to this email,
id., noted by plaintiff in its opposition brief as prior decisions successfully litigated by
defense counsel, confers added credibility to defendants’ suggestions that they would
sue plaintiff.
Less significant, although still relevant, is defense counsel’s legal practice.
Plaintiff alleges that defense counsel’s firm “is a leading filer of ADA claims,” Compl. ¶ 13,
and defense counsel’s own prelitigation communications (noted above) support that
characterization. The fact that defendants contacted plaintiff through counsel with such a
reputation further supports finding that plaintiff acted out of a real and reasonable
apprehension of facing suit by defendants.
Defendants, however, do identify numerous statements in their prelitigation
communications reflecting an intent to cooperate with plaintiff. Such statements include
the following:
•

“Please let us know within fourteen (14) days of receipt of this letter if you agree to
participate in the interactive process outlined above,” Compl., ¶ Ex. 2; Dkt. 22-2,
Ex. 1 (emphasis added);
12a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 8 of 16

•

“In light of the above, we have been retained to contact Expensify about its
inaccessible mobile applications and to resolve our clients’ discrimination claims
in a confidential settlement agreement, or litigation,” Dkt. 22-2, Ex. 4 (emphasis
added);

•

“By resolving this matter before litigation, it is our designed goal to eliminate the
litigation-related fee award entirely and reduce the monitoring costs significantly,”
id. (emphasis added);

•

“Perhaps we can schedule a time to connect by phone?,” id.;

•

“Please let me know by April 11, 2019 whether you believe further pre-litigation
discussions are appropriate. Otherwise, our office will conclude these resolution
efforts to have been unsuccessful and go from there,” Dkt. 22-2, Ex. 5 (emphasis
added); and

•

Upon learning that Expensify’s counsel was out of the country, defense counsel
wrote: “That is awesome. I look forward to catching up with [plaintiff’s
counsel] upon his return. Steve, if you’re reading this, I hope you have a great
time during your last days in Morocco,” id. (emphasis added).
While these statements reflect an apparent intent to resolve defendants’

complaints about the accessibility of plaintiff’s website without litigation, the court finds
that any such intent is overshadowed by the suggestions of litigation specified above.
Relatedly, while defendants might be correct that certain cases they cite as finding a
cognizable controversy involve facts not present here, the formation of a “real and
reasonable” apprehension is a fact-intensive inquiry and the specific circumstances
surrounding the parties’ prelitigation communications here may nonetheless form the
basis for plaintiff’s “real and reasonable apprehension” of suit.
Defendants’ remaining argument—that finding a cognizable apprehension of
litigation by plaintiff would “chill” pre-complaint communications aimed at informal
resolution of a dispute—has merit. Regardless, by defendants’ own recognition, that
argument is grounded in the “policy” of the Ninth Circuit. While informal resolution may
13a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 9 of 16

be a desired outcome of the law, it does not dictate application of the controlling doctrinal
test for determining the existence of a cognizable controversy.
2. Events Subsequent to the Complaint’s Filing Mooted this Action
There is no contest that defendants’ waivers facially mooted this action. As
discussed immediately below, such waivers are materially identical to those that the
United States Supreme Court in Already, LLC v. Nike, Inc., 568 U.S. 85 (2013) found in
the first instance to “call[] into question the existence of any continuing case or
controversy.” Id. at 92. Instead, the key questions here are whether either (1) the
voluntary cessation or (2) the capable of repetition yet repeating review doctrines limit
such mootness finding. They do not.
i. Defendants’ Waivers Satisfy the Voluntary Cessation Test
A defendant’s voluntary cessation of the conduct challenged in an existing action
moots a case only if such cessation is “absolutely clear that the allegedly wrongful
behavior could not reasonably be expected to recur.” Adarand Constructors, Inc. v.
Slater, 528 U.S. 216, 221 (2000) (emphasis in the original). The Court in Already, LLC v.
Nike, Inc. recognized that a defendant’s voluntary, unconditional, and irrevocable
covenant not to sue in connection with certain subject matter challenged by plaintiff in a
declaratory judgment action is sufficiently broad to ensure that defendant’s challenged
conduct could not reasonably be expected to recur. 568 U.S. 85, 92-95. The party
challenging the ongoing justiciability of an existing action bears the “heavy burden” of
proving that the challenged conduct cannot reasonably be expected to recur. Adarand
Constructors, Inc., 528 U.S. at 222.
Here, defendants have met their burden of showing that their challenged conduct
cannot reasonably be expected to recur. Defendants are correct that the Court in
Already, LLC v. Nike, Inc. considered a materially similar covenant not to sue as provided
in this case. 568 U.S. 85, 93. Compared side-by-side, each covenant provides as
follows:

14a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 10 of 16

Covenant Not to Sue in Already LLC

Covenant Not to Sue in this Action

“[Nike] unconditionally and

“White unconditionally and irrevocably

irrevocably covenants to refrain from

covenants to refrain from making any

making any claim(s) or demand(s) ...

claim(s) or demand(s) against

against Already or any of its ... related

Expensify, or any of its related business

business entities ... [including] distributors

entities, including distributors and

... and employees of such entities

employees of such entities on account

and all customers ... on account of

of any possible cause of action based

any possible cause of action based on

on or involving the accessibility of

or involving trademark infringement,

Expensify’s past, present, or future

unfair competition, or dilution, under

websites and mobile applications,

state or federal law ... relating to the

including but not limited to all claims

NIKE Mark based on the appearance

arising from or relating to Title III of the

of any of Already's current and/or

ADA, California, Unruh Civil Rights Act,

previous footwear product designs,

the Pennsylvania Human Relations Act,

and any colorable imitations thereof,

and any other federal, state, or local law,

regardless of whether that footwear is

statute or ordinance, rule or principle of

produced ... or otherwise used in

common law or doctrine in law or equity,

commerce before or after the Effective

known or unknown, suspected or

Date of this Covenant.”

unsuspected, foreseen or unforeseen,

Already, LLC v. Nike, Inc., 568 U.S. 85,

real or imaginary, actual or potential,

93 (2013) (emphasis added).

before or after the Effective Date of
this Covenant.”
Dkt. 22-2, Ex. 2 (emphasis added).

As defendants also point out, the Court held that such covenant overcame the
voluntary cessation limitation on the mootness doctrine. Id. at 728. The Court reasoned
that plaintiff’s “only legally cognizable injury—the fact that Nike took steps to enforce its
trademark—is now gone and, given the breadth of the covenant, cannot reasonably
15a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 11 of 16

be expected to recur. There being no other basis on which to find a live controversy,
the case is clearly moot.” Id. at 732 (emphasis added).
Here, there is no cognizable distinction between the covenants provided by
defendants to plaintiff and those considered in Already, LLC. The conduct challenged by
the plaintiff in Already, LLC was Nike’s attempt to “press[] an invalid trademark to halt
[Already’s] legitimate business activity.” Id. at 91-92. The conduct challenged by plaintiff
is the threat of a lawsuit for purported ADA-related violations in connection with its
website. Because the breadth of the covenants provided in the waivers “suffices to meet
the burden imposed by the voluntary cessation test,” id. at 728, the justiciability of
plaintiff’s mooted action against defendants is not saved by this limitation.3
ii. Plaintiff Does Not Present a Cognizable Theory that Defendants’
Conduct Is Capable of Repetition Yet Evading Review
Courts also recognize a limitation on the mootness doctrine when conduct
underlying a declaratory judgment action is “capable of repetition while evading review.”
Alvarez v. Smith, 558 U.S. 87, 93 (2009). This limitation applies only in “exceptional
situations, and generally only where the plaintiff can make a reasonable showing that he
will again be subjected to the alleged illegality.” Alvarez, 558 U.S. 87, 93. The Ninth
Circuit has ruled that “the ‘capable of repetition, yet evading review’ exception to
mootness applies only when (1) the challenged action is too short in duration to be fully
litigated before cessation or expiration, and (2) there is a reasonable expectation that the
same complaining party will be subjected to the same action again.” Bernhardt v. Cty. of
Los Angeles, 279 F.3d 862, 871–72 (9th Cir. 2002).
Here, plaintiff does not argue that the conduct of defendants White or defendant
Koleslar is capable of repetition yet evading review. Instead, plaintiff argues that the

Plaintiff’s remaining argument on the applicability of this limitation—that defendants’
waivers do not prevent non-party defense counsel from initiating additional lawsuits
against plaintiff on behalf of other future potential litigants—is substantially similar to
its theory that the challenged conduct is capable of repetition yet evading review. As a
result, the court addresses the merits of that argument immediately below.
3

16a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 12 of 16

likelihood that defense counsel will represent other third-party plaintiffs in future website
disability access related litigation triggers preserves the justiciability of its action.
Plaintiff failed to identify any authority expressly considering its theory that
potential future representation of third-parties by counsel may trigger the capable of
repetition yet evading review limitation. The closest authorities identified, proffered by
defendants, simply presume that the challenged conduct capable of repetition would be
repeated by the defendant to the existing action, see Hewitt v. Helms, 482 U.S. 755, 761
(1987) (“In all civil litigation, the judicial decree is not the end but the means. At the end of
the rainbow lies not a judgment, but some action (or cessation of action) by the
defendant that the judgment produces—the payment of damages, or some specific
performance, or the termination of some conduct. Redress is sought through the court,
but from the defendant. This is no less true of a declaratory judgment suit than of any
other action. The real value of the judicial pronouncement—what makes it a proper
judicial resolution of a “case or controversy” rather than an advisory opinion—is in the
settling of some dispute which affects the behavior of the defendant towards the
plaintiff.”) (emphasis added), or must implicate the interests of the parties, see Seven
Words LLC v. Network Sols., 260 F.3d 1089, 1098–99 (9th Cir. 2001) (“A case or
controversy exists justifying declaratory relief only when ‘the challenged ... activity ... is
not contingent, has not evaporated or disappeared, and, by its continuing and brooding
presence, casts what may well be a substantial adverse effect on the interests of the . .
. parties.’”) (emphasis added). Absent authority acknowledging that this limitation
extends to potentially unreviewable conduct by unascertainable persons not a party to
the litigation, the court refuses to adopt plaintiff’s theory of the capable of repetition yet
evading review doctrine.
In any event, plaintiff’s theory, if accepted, would run the risk of running afoul of
other jurisdictional requirements. Absent joinder of the future potential litigants that
plaintiff purports will evade review, plaintiff cannot satisfy the Article III standing
requirement that the challenged injury be both “imminent, not conjectural or hypothetical”
17a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 13 of 16

as well as “fairly traceable to the challenged action of the defendant.” Friends of the
Earth, Inc. v. Laidlaw Envtl. Servs., Inc., 528 U.S. 167, 180–81 (2000). Additionally,
because defendant White is the only defendant remaining party to this action and
plaintiff’s claims as to him were mooted by his waiver, ruling on the action pursuant to
plaintiff’s theory would also qualify as an advisory opinion on some speculative future
third-party conduct not yet giving rise to the real and reasonable apprehension necessary
to find a cognizable case or controversy. These additional potential jurisdictional defects
provide an independent basis to reject plaintiff’s theory.
Lastly, as just described with respect to the conduct of potential future third-party
litigants, defense counsel is not a party to this litigation. Whatever it may do with thirdparty litigants in the future is of no moment to what this court does with the litigants in this
action now. As a result, the court refuses to extend the capable of repetition yet evading
review limitation here on the ground that defense counsel may instigate future litigation
elsewhere.
3. Prudential Factors Separately Cut Against Deciding Plaintiff’s Claims
Distinct from the case and controversy requirement, a district court must also be
satisfied that deciding an action for declaratory judgment is prudentially appropriate.
Gov’t Employees Ins. Co. v. Dizol, 133 F.3d 1220, 1222-23 (9th Cir. 1998) (“The
Declaratory Judgment Act embraces both constitutional and prudential concerns. . . . If
the suit passes constitutional and statutory muster, the district court must also be
satisfied that entertaining the action is appropriate.”). Among others, such factors include
whether exercising jurisdiction would result in needlessly determining state law issues,
encouraging forum shopping, clarifying the legal relations at issue, or promoting
procedural fencing. Id. at 1225.
Here, even if plaintiff’s action were constitutionally justiciable, the court is still not
satisfied that the various factors outlined in Dizol support exercising its authority to decide
plaintiff’s claims. As a result, on this independent ground, too, dismissal of plaintiff’s
claims is appropriate.
18a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 14 of 16

4. Plaintiff’s Nominal Damages Claim Does Not Preserve This Action
While “a live claim for nominal damages will prevent dismissal for mootness,”
Bayer v. Neiman Marcus Grp., Inc., 861 F.3d 853, 869 (9th Cir. 2017), such a prayer
arising out of a now-mooted claim requires “close inspection” as to its validity, Arizonans
for Official English, 520 U.S. 43, 71. In Bayer, the Ninth Circuit considered a claim for a
declaratory judgment premised upon an alleged requirement by an employer that its
employees consent to an arbitration agreement as a condition of employment. Id. at 860.
Plaintiff claimed that such requirement violated Title 28 U.S.C. § 12203(b) because it
effectively required him to choose between his job and the exercise of his civil rights
under the ADA. Id. at 867. Because plaintiff was no longer employed by the employer,
the court concluded that such declaratory judgment claim was moot. Id. at 868.
The court then considered whether plaintiff’s claim for nominal damages—which
arose out of the same set of facts supporting plaintiff’s mooted claim for declaratory
judgment—remained actionable as an equitable remedy. Id. at 868-69. The court
determined that it was. Id. at 875. To reach that determination, the court reasoned that
“a violation of a statute intended to safeguard civil rights” gives rise to a certain “dignitary
interest” that makes nominal damages “particularly well suited to securing complete
justice” in that case. Id. at 874. The court in Bayer explained that “[i]n the context of a
claim brought under a federal statute intended to combat discrimination, the phrase
‘complete justice’ has a clear meaning: the district court has not merely the power but the
duty to render a decree which will so far as possible eliminate the discriminatory effects
of the past as well as bar like discrimination in the future.’” Id. at 873 (citations omitted)
(footnote omitted).
Here, plaintiff has failed to identify any special interest justifying an award of
nominal damages. Instead, plaintiff merely argues that defendants’ suggestions that its
website is in violation of applicable law qualifies as an affront to its “dignitary interest.” A
play on words, such an affront (even if true) does not qualify as a violation of plaintiff’s
civil rights. As a result, an award for nominal damages here would not advance the sort
19a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 15 of 16

of “complete justice” relied upon by the Bayer court to issue such relief. Because plaintiff
also failed to identify any authority recognizing the propriety of a nominal damages award
in a situation such as this outside the civil rights context, plaintiff’s claim for nominal
damages does not preserve the justiciability of its action.
5. Plaintiff’s Requests to Amend Its Complaint Are Futile
Attempting to salvage the justiciability of its action, plaintiff requests leave to
amend its complaint on three distinct grounds. Because none of these grounds would
revive plaintiff’s action, its requests to amend are denied as futile.
i. Allegations of a Reasonable Apprehension of a Class Action Suit
In its opposition briefing, plaintiff requests leave to amend its complaint to
specifically allege reasonable apprehension of a class action suit. At oral argument,
plaintiff failed to identify any ascertainable class or basis beyond a single reference to a
class action in the parties’ prelitigation communications to justify such an amendment.
Given such failures, the court finds that plaintiff’s request to amend its complaint on this
ground is futile and therefore DENIED.
ii. Nominal Damages on the Theory of Defense Counsel’s Purported
Accusations of Unlawful Conduct
In its briefing, plaintiff also requests leave to amend its prayer for relief to specify a
claim for nominal damages premised upon defense counsel’s wrongfully accusing plaintiff
of violating the statutory rights of blind individuals. Because plaintiff has failed to identify
any legal basis that would support an award for nominal damages in a case such as this
(where the alleged underlying injury is not a violation of its civil rights), plaintiff’s request
to amend its complaint on this ground is futile and therefore DENIED.
iii. Negligent Misrepresentation concerning Defendant White’s Use of
Plaintiff’s Website
At oral argument, plaintiff raised the possibility of amending its complaint to allege
a negligent misrepresentation or fraud claim against defendant White on the basis that he
never actually used plaintiff’s website. When asked by the court at oral argument,
20a

Case 4:19-cv-01892-PJH Document 32 Filed 10/18/19 Page 16 of 16

plaintiff failed to identify any misrepresentation in a verified pleading by defendant White.
Instead, plaintiff pointed only to statements by defense counsel in their prelitigation
communications and reply brief. The court refuses to find that defendant White should be
held liable for any misrepresentations by defense counsel (much less attorney argument)
about his actual use of plaintiff’s website.4 As a result, plaintiff’s request to amend its
complaint on this ground is futile and therefore DENIED.
CONCLUSION
For the foregoing reasons, the court GRANTS defendants’ motion to dismiss with
prejudice.
IT IS SO ORDERED.
Dated: October 18, 2019
/s/ Phyllis J. Hamilton
PHYLLIS J. HAMILTON
United States District Judge

4

The court cautions that a misrepresentation in a verified pleading could compel a
different result.
21a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 1 of 13

Steven Carlson (CA Bar No. 206451)
Kevin Pasquinelli (CA Bar No. 246985)
Robins Kaplan LLP
2440 West El Camino Real
Suite 100
Mountain View CA 94040
Telephone: (650) 784-4040
Fax: (650) 784-4041
Attorneys for Plaintiff Expensify, Inc.

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
EXPENSIFY, INC.,

Case No.

Plaintiff,

COMPLAINT FOR DECLARATORY
JUDGMENT

vs.
EDDIE WHITE AND MATT KOLESAR,
Defendants.

COMPLAINT
Expensify, Inc. (“Expensify”), a Delaware corporation, brings this claim, seeking a
declaratory judgment by this Court pursuant to 28 U.S.C. § 2201 against Defendants Eddie White
(“White”) and Matt Kolesar (“Kolesar”) (collectively, “Defendants”), and in support thereof does
allege and state as follows:
NATURE OF CASE
1. This is an action for declaratory judgment arising under the Americans with Disabilities Act,
42 U.S. C. § 12101 et seq. (“ADA”), California’s Unruh Civil Rights Act (“the Unruh Act”), and
the Pennsylvania Human Relations Act (“PHRA”).
2. Defendants have asserted that Expensify violates the ADA, the Unruh Act, and the PHRA
by not accommodating the needs of the visually impaired via its website and mobile applications.
Claims against Expensify based on these statutes are not legally cognizable. In the Ninth Circuit it
22a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 2 of 13

is well settled law that the ADA does not apply to websites unless there is a nexus between the site
and a brick-and-mortar store which offers goods or services to customers. Expensify offers no goods
and services through its office space and therefore no nexus exists between Expensify’s offices and
the services it offers the public through its website. Second, Defendants cannot establish an Unruh
Act cause of action, independent of an ADA claim, unless there is intentional discrimination in
public accommodations in violation of the terms of the Act. Defendants cannot aver facts that would
support intentional discrimination and therefore, any Unruh Act cause of action fails. Lastly,
Defendants have asserted that Expensify is in violation of the PHRA. Under Pennsylvania law any
cause of action requesting this court’s assistance must first have been brought before the
Pennsylvania Human Rights Commission (“PHRC”). Defendants have failed to bring any such
claim against Expensify. As such, Defendants have failed to exhaust their administrative remedies,
and any PHRA matter is not ripe for hearing at this time.
JURISDICTION AND VENUE
3. This Court has federal question jurisdiction over the subject matter of this action, the ADA,
pursuant to 28 U.S.C. § 1331 and 42 U.S.C § 12188, and supplemental jurisdiction over the related
state claims under the Unruh Act and the PHRA.
4. This Court has personal jurisdiction over Defendant White because he is a resident of the
State of California. 1
5. This Court has personal jurisdiction over Defendant Kolesar because he has purposefully
conducted activities jointly with other California residents into California relative to the subject
matter of his action; directed his actions in concert with other California residents in California
relative to the subject matters of this action, hired counsel in California jointly with other California
residents for such purposes, made demands in concert with other California residents upon

1

Exh. 1 Pg. 1 ¶ 1 states that Mr. White resides in California.
23a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 3 of 13

Expensify in California relating to Expensify’s online automated expense reporting services (which
are hosted from and provided from California), and purposefully availed himself of California law
by threatening frivolous litigation in concert with other California residents against Expensify based
on protections offered by California law (including at least the Unruh Act) to obtain “statutory
damages on a class basis.” 2
6. Venue in this judicial district is proper under 28 U.S.C. § 1391(b)(2) in that this lawsuit
arises in relation to web services and mobile applications developed by Expensify out of its places
of business in San Francisco, California and Portland, Oregon. In addition, Expensify hosts its
webservers in San Jose, Los Angeles, and Reno. As a result, a substantial part of the decisions and
events giving rise to the claim at issue herein occurred within this judicial district.
BACKGROUND OF EXPENSIFY SERVICES
7. Expensify is a Delaware corporation with principal places of business in San Francisco,
California and Portland, Oregon.
8. Expensify offers services that automate expense reporting, through its software as a service
(“SaaS”) platform.
9.

Expensify’s services can be accessed through its website, http://www.expensify.com, and

through native software applications that are available on Apple (iOS) and Google (Android) mobile
devices.
10. Expensify does not sell or allow access to its services through brick and mortar retail or
commercial locations. All of Expensify’s expense automation services operate through its website
and its mobile applications. Expensify’s physical offices are not open to the public or to Expensify’s
customers (i.e., Expensify has no customer-facing physical location). Defendants were informed of

2

Exh. 2 Pg. 3 ¶ 2.
24a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 4 of 13

this readily-verifiable fact, yet persisted in pursuing these claims against Expensify.
11. More specifically, Expensify’s expense reporting services do not facilitate access to or
connect customers to goods or services in Expensify’s physical offices. No goods or services are
offered for sale from Expensify’s physical offices. There is no nexus between Expensify’s online
services and its physical offices.
FACTS RELATING TO THE UNDERLYING DISPUTE
12. Bringing suits based on ADA Title III claims has become a cottage industry. According to a
bi-annual report by the law firm Seyfarth Shaw LLP, “the number of ADA Title III lawsuits filed in
federal court in 2018 hit a record high of 10,163-- up 34% from 2017 when the number was a mere
7,663.” 3 This number represents almost a fourfold increase since Seyfarth Shaw started tracking the
filings in 2013. Of the 10,163 filed nationwide in 2018, 4,249 of those were filed in California,
representing almost 42 percent of all lawsuits. 4
13. On February 27, 2019, Mr. R. Bruce Carlson and Kevin W. Tucker of Carlson Lynch Sweet,
Kilpela & Carpenter, LLP (“Carlson Lynch”) sent a letter to David Barrett, Founder and CEO of
Expensify, accusing Expensify of violating the ADA, the Unruh Act, and the PHRA. See Exhibit 1
(the “Demand Letter”). The Demand Letter asserts in part that Mr. White, a California resident, was
“born with Cataracts and Glaucoma . . . He is totally blind in his left eye, and has very little vision
in right eye.” 5 “Mr. Kolesar resides in Pennsylvania . . .[and] . . suffers from retinitis pigmentosa, a
genetic disorder that rendered him totally blind when he was just nineteen years old.” 6 As such,
“both individuals use screen reader technology to access mobile applications on their
smartphones.” 7 The Demand Letter asserts that the Expensify software is not designed to utilize the

3
4
5
6
7

Exh. 2 Pg. 1 ¶ 1.
Id. at Pg. 2, lower graph.
Exh. 1 at Pg. 1 ¶ 1.
Id.
Id.
25a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 5 of 13

screen reader technology and therefore denies equal access by lack of “provid[ing] text equivalents
for non-text elements,” and “fail[ure] to distinguish elements that trigger changes.” 8
14. Carlson Lynch is a leading filer of ADA claims. According to Lex Machina, Carlson Lynch
has filed ninety-nine employment law claims, fifteen of those currently open. 9 According to the
Wall Street Journal, as of November 1, 2016, “the suits often settle quickly, for between $10,000
and $75,000 . . . with the money typically going toward plaintiffs’ attorneys’ fees and expenses.” 10
As of 2016, Carlson Lynch’s own website was not compliant with the standards it asserts in its
demand letters. 11
15. On March 18, 2019, Mr. Steven Carlson, of Robins Kaplan LLP, counsel for Expensify,
responded to the accusations stating very clearly that “Expensify offers its services exclusively
through the Internet” and as such does not offer its services through places of public accommodation
as required to state a claim under the ADA Title III. 12 Electronic services offered over the Internet
are not a place of public accommodation, as determined by the Ninth Circuit and others. Below is a
discussion of applicable law.
16. On or about this time, Expensify searched its databases for any record of Defendants White
or Kolesar registering for an Expensify account. To date, Expensify has found no accounts that
appear to be associated with Defendants White or Kolesar. 13
17. On Saturday, March 23, 2019, Mr. Kevin Tucker, of Carlson Lynch, sent an email to Mr.
Steven Carlson stating that he knew ways to “overcome the ‘public accommodation’ argument you
raise.” This law is also discussed below. All of these “solutions” were to file suit in foreign courts,

8
Exh. 1 Pg. 2 ¶¶ 3-4.
9
Exh. 4 Lex Machina
10
Exh. 5 Pg. 1. ¶ 3.
11

screen shot.

Exh. 6. Letter from counsel in prior case demonstrating failure of Carlson Lynch website to pass
accessibility tests.
12
Exh. 3 Pg. 2 ¶ 4.
13
This cannot be definitely known without further details of defendants. Expensify has found a
customer named Matt Kolesar, however this account has not been active for three years.
26a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 6 of 13

such as the West District of Pennsylvania, the District of Massachusetts, and the District of New
Hampshire, where Expensify has no physical presence.
GOVERNING LAW
AMERICANS WITH DISABILITIES ACT

18. Circuit courts are split on whether websites, and associated mobile applications which access
those websites, constitute a place of public accommodation as required by the ADA. Courts of the
Third, Sixth, Ninth, and Eleventh Circuits hold that the statute is unambiguous, holding that places
of public accommodation are physical structures, and that the only goods and services that a disabled
person has a full and equal right to enjoy are those offered at a physical location. Discrimination
relating to a website only exists if the discriminatory conduct has a nexus to the goods and services
offered at a physical location.
19. This approach means that an inaccessible website associated with a brick and mortar retail
store could be in violation of the ADA if the website’s inaccessibility interferes with the full and
equal enjoyment of the goods and services offered at the physical store. However, a business that
operates solely through the Internet and has no customer-facing physical location is not required to
make its website accessible.
20. The most recent Ninth Circuit case affirming these positions is Robles v. Domino's Pizza,
LLC, 913 F.3d 898, 902 (9th Cir. 2019). Robles affirmed Weyer v. Twentieth Century Fox Film
Corp, 198 F.3d 1104, 1113-14 (9th Cir. 2000), which held that the ADA covers only: (1) physical
places were goods or services are open to the public; and (2) to apply to a website, the site must
have some connection between the good or service complained of and an actual physical place.
Robles at 905. In applying Weyer, district courts have made clear that websites without a nexus to
physical structures do not constitute places of public accommodation. Additional authority arising
from California in the Ninth Circuit reaffirm this standard:

27a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 7 of 13

•

Young v. Facebook, Inc., 790 F.Supp.2d 1110, 1115 (N.D. Cal. 2011) (“Under
controlling Ninth Circuit authority, ‘places of public accommodation’ under the ADA
are limited to actual physical spaces ... Facebook operates only in cyberspace, and thus
is not a ‘place of public accommodation’ as construed by the Ninth Circuit. While
Facebook's physical headquarters obviously is a physical space, it is not a place where
the online services to which [the plaintiff] claims she was denied access are offered to
the public.”);

•

Nat'l Fed'n of the Blind v. Target Corp., 452 F. Supp. 2d 946, 952 (N.D. Cal. 2006)
(holding that the ADA can only apply to a website when "there is a 'nexus'" alleged
between the challenged conduct and defendant's "physical space.");

•

Earll v. eBay, Inc., No. 5:11-CV-00262-JF HRL, 2011 U.S. Dist. LEXIS 100360, 2011
WL 3955485, at *2 (N.D. Cal. Sept. 7, 2011) (holding [**12] that eBay's website is not
a place of public accommodation under the ADA).

Courts in the Third and Eleventh Circuits also require a nexus. See
•

Tawam v. APCI Federal Credit Union, 2018 WL 3723367 *6 (E.D. Pa. August 6, 2018)
(claim under Title III of the ADA requires some “nexus” between the physical place of
public accommodation and the services denied in a discriminatory manner) citing
Peoples v. Discover Fin. Servs., Inc., 387 F. App'x 179, 183 (3d Cir. 2010) and
Menkowitz v. Pottstown Mem'l Med. Ctr., 154 F.3d 113, 120 (3d Cir. 1998).

•

Gomez v. Bang & Olufsen Am., Inc., 2017 U.S. Dist. LEXIS 15457, 2017 WL [*390]
1957182, at *4 (S.D. Fla. Feb 2, 2017) (“All the ADA requires is that, if a retailer
chooses to have a website, the website cannot impede a disabled person’s full use and
enjoyment of the brick-and-mortor [sic] store. . . . [therefore] his ADA claim must be
dismissed.”).
28a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 8 of 13

21. Defendants, in their most recent letter, cite to single case from the W.D.Pa., Suchenko v.
Ecco USA, Inc., 2018 WL 3933514 (W.D.Pa. Aug. 16, 2018). In Suchenko the Court did not grant
dismissal, holding that defendant “purportedly owns, operates, and/or controls the property upon
which the alleged discrimination has taken place—i.e., its website. Therefore, Plaintiff in this case
has a nexus to the place of public accommodation and thus may claim the protections of Title III.”).
The holding is in error, failing to correctly apply either Peoples v. Discover Fin. Servs., Inc., or
Menkowitz v. Pottstown Mem'l Med. Ctr., both of which are controlling in the Third Circuit. Even
if Suchenko were correctly decided, it is not controlling in the Ninth Circuit.
The Unruh Act

22. A violation of the Unruh Act may be maintained independent of an ADA claim only where
“intentional discrimination in public accommodations in violation of the terms of the Act” are pled.
Munson v. Del Taco, Inc., 46 Cal. 4th 661, 668, 94 Cal. Rptr. 3d 685, 208 P.3d 623 (2009) (quoting
Harris v. Capital Growth Investors XIV, 52 Cal. 3d 1142, 1175, 278 Cal. Rptr. 614, 805 P.2d 873
(1991). To prove intentional discrimination there must be allegations of “willful, affirmative
misconduct,” and there must be more than the disparate impact of a facially neutral policy on a
particular group. Koebke v. Bernardo Heights Country Club, 36 Cal. 4th 824, 854, 31 Cal Rptr. 3d
565, 115 P.3d 1212 (2005).
23. To sufficiently state a cause of action under the Unruh Act, Defendants’ claim cannot be
based solely on the disparate impact of Expensify’s policies on visually impaired individuals.
Rather, it must be grounded on intentional discrimination. Defendants have not asserted any facts,
plausible or otherwise, relating to intentional discrimination because no such discrimination exists.
Pennsylvania Human Relations Act

24. Expensify has been accused of violating the PHRA. “To bring suit under the PHRA, a
plaintiff must first have filed an administrative complaint with the PHRC within 180 days of the
alleged act of discrimination. If a plaintiff fails to file a timely complaint with the PHRC, then he or
29a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 9 of 13

she is precluded from pursuing judicial remedies. The Pennsylvania courts have strictly interpreted
this requirement.” Waters v. Genesis Health Ventures, Inc., 2004 U.S. Dist. LEXIS 25604,
Civ.A.No. 03-CV-2909, 2004 WL 2958436, at *5 (E.D. Pa. Dec. 21, 2004) (quoting Richards v.
Foulke Assocs., Inc., 151 F. Supp. 2d 610, 613 (E.D. Pa. 2001)). In Vincent v. Fuller Co., 532 Pa.
547, 616 A.2d 969 (Pa. 1992), the Pennsylvania Supreme Court stated that: “persons with claims
that are cognizable under the Human Relations Act must avail themselves of the administrative
process of the Commission or be barred from the judicial remedies authorized in Section 12(c) of
the Act. This rule of ‘exhaustion of remedies’ has long been applied by the courts of this
Commonwealth to claims under the Act.”
25. Expensify has not been named as a defendant in a Charge of Discrimination (“COD”) before
the Pennsylvania Human Relations Commission (the “Commission”). Therefore, Defendants have
not exhausted their administrative remedies against Expensify in this action and therefore any PHRA
judicial remedy requested in this tribunal cannot stand.
26. Therefore, an actual and justiciable controversy exists, within the meaning of the Declaratory
Judgment Act, between Expensify and the Defendants as to the applicability and requirements of
the ADA, the Unruh Act, and the PHRA regarding the website and mobile applications of Expensify.
Therefore, a declaration by this Court is necessary to resolve this controversy.
COUNT 1 – CLAIM FOR DECLARATORY RELIEF
NON VIOLATION OF TITLE III OF THE ADA
27. Expensify re-alleges and incorporates each of the foregoing paragraphs by reference as
through fully set forth herein.
28. Expensify’s website and mobile applications are not places of public accommodation as
required by Title III of the ADA.
29. Defendants’ allegations regarding the ADA, the functionality of Expensify’s website and

30a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 10 of 13

mobile applications, such as lack of “provid[ing] text equivalents for non-text elements,” and
“fail[ure] to distinguish elements that trigger changes,” has created a case or controversy regarding
the ADA.
30. Expensify requests a declaration that Expensify’s website and mobile applications are not
places of public accommodation and do not violate the ADA, and therefore Defendants allegations
fail as a matter of law.
COUNT 2 – CLAIM FOR DECLARATORY RELIEF
NON-VIOLATION OF THE UNRUH ACT
31. Expensify re-alleges and incorporates each of the foregoing paragraphs by reference as
though fully set forth herein.
32. Defendants have not asserted that Expensify has intentionally discriminated in public
accommodations in violation of the terms of the Unruh Act and they cannot. Expensify has not
intentionally, or otherwise, discriminated in public accommodations.
33. Despite not asserting intentional discrimination in public accommodations, Defendants have
asserted that Expensify is violation the Unruh Act relative to its website and mobile applications
being accessible to the visually impaired.
34. Therefore, an actual case or controversy exists whether Expensify is in violation of the Unruh
Act.
35. Expensify’s website and mobile applications are not places of public accommodation and
Expensify has not intentionally discriminated relative to its websites.
36. As such, Expensify requests a declaration that its website and mobile applications are not
places of public accommodation, that Expensify has not intentionally discriminated relative to its
website and therefore does not violate the Unruh Act as a matter ow law.

31a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 11 of 13

COUNT 3 – CLAIM FOR DECLARATORY RELIEF
NON-VIOLATION OF THE PHRA
37. Expensify re-alleges and incorporates paragraphs 1-30 by reference as though fully set forth
herein.
38. Under the PHRA Defendants must first have filed an administrative complaint, asserting a
Charge of Discrimination (“COD”) with the Pennsylvania Human Relations Commission (‘PHRC”)
within 180 days of the alleged act of discrimination.
39. Expensify has not been named as a defendant in a COD before the PHRC.
40. Defendants have not exhausted their administrative remedies against Expensify in this action
and therefore any PHRA judicial remedy requested in this tribunal is not ripe.
PRAYER FOR RELIEF
WHEREFORE, Expensify prays for relief as follows:
i.

That the Court enter judgment for Expensify;

ii.

For a Declaratory Judgment that Expensify is not in violation through its website, mobile
applications, or otherwise, in violation of Title III of the ADA.

iii.

For a Declaratory Judgment that Expensify is not in violation through its website, mobile
applications, or otherwise, in violation of the Unruh Act.

iv.

For a Declaratory Judgment that Expensify is not in violation through its website, mobile
applications, or otherwise, in violation of PHRA.

v.

That pursuant to 35 U.S.C. § 285, Federal Rule of Civil Procedure 11, and/or other
applicable authority, Defendants be ordered to pay all of Expensify’s reasonable attorneys’
fees incurred in defending against Defendants’ claims;

vi.

For costs incurred in defense of this action;

vii.

For such other and further relief as the Court may deem proper.
32a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 12 of 13

ROBINS KAPLAN LLP
Dated: April 8, 2019

/s/ Kevin Pasquinelli
Steven Carlson (CA Bar No. 206451)
Kevin Pasquinelli (CA Bar No. 246985)
ROBINS KAPLAN LLP
2040 West El Camino Real
Mountain View, CA 94040
Tele: (650)-784-4040
Fax: (650) 784-4041
scarlson@robinskaplan.com
kpasquinelli@robinskaplan.com
Attorneys for Plaintiff
EXPENSIFY, INC.

33a

Case 4:19-cv-01892-PJH Document 1 Filed 04/08/19 Page 13 of 13

34a

Case 4:19-cv-01892-PJH Document 1-1 Filed 04/08/19 Page 1 of 5

EXHIBIT 1

35a

Case 4:19-cv-01892-PJH Document 1-1 Filed 04/08/19 Page 2 of 5

36a

Case 4:19-cv-01892-PJH Document 1-1 Filed 04/08/19 Page 3 of 5

37a

Case 4:19-cv-01892-PJH Document 1-1 Filed 04/08/19 Page 4 of 5

38a

Case 4:19-cv-01892-PJH Document 1-1 Filed 04/08/19 Page 5 of 5

39a

Case 4:19-cv-01892-PJH Document 1-2 Filed 04/08/19 Page 1 of 6

EXHIBIT 2

40a

4/3/2019

Number of ADADocument
Title III Lawsuits1-2
Filed inFiled
2018 Tops
10,000 | ADA
Title III2 of 6
Case 4:19-cv-01892-PJH
04/08/19
Page

ADA Title III
News & Insights

Number of ADA Title III Lawsuits Filed in 2018 Tops
10,000
By Minh N. Vu, Kristina M. Launey & Susan Ryan on January 22, 2019

The number of ADA Title III lawsuits filed in federal court in 2018 hit a record high of 10,163 –
up 34% from 2017 when the number was a mere 7,663. This is by far the highest number of
annual filings since we started tracking these numbers in 2013, when the number of federal
filings was only 2,722. In other words, the number of cases has more than tripled. The chart
below shows the explosion in these types of suits:

https://www.adatitleiii.com/2019/01/number-of-ada-title-iii-lawsuits-filed-in-2018-tops-10000/

41a

1/5

4/3/2019

Number of ADADocument
Title III Lawsuits1-2
Filed inFiled
2018 Tops
10,000 | ADA
Title III3 of 6
Case 4:19-cv-01892-PJH
04/08/19
Page

[Graph: ADA Title III Lawsuits in Federal Court: 2013-2018: 2013: 2722; 2014: 4436, 63% increase over
2013; 2015: 4789, 8% increase over 2014; 2016: 6601, 37% increase over 2015; 2017: 7663, 16%
increase over 2016; 2018: 10163, 33% increase over 2017]

California, New York, and Florida led the pack by a wide margin as the states with the most
ADA Title III lawsuits, with Texas, Georgia, Pennsylvania, Arizona, Massachusetts, New Jersey,
and Alabama making the top ten but trailing far behind. Nevada, Colorado, and Utah fell out
of the top ten in 2018, displaced by newcomers Alabama, Arizona, and Massachusetts. No
ADA Title III lawsuits were filed in Montana, New Mexico, North Dakota, South Dakota,
Vermont, Wyoming.

[Graph: Top 10 States for ADA Title III Federal Lawsuits in 2018: CA 4249, NY
2338, FL 1941, TX 196, GA 160, PA 129, AZ 94, MA 91, NJ 82, AL 80.
https://www.adatitleiii.com/2019/01/number-of-ada-title-iii-lawsuits-filed-in-2018-tops-10000/

42a

2/5

4/3/2019

Number of ADADocument
Title III Lawsuits1-2
Filed inFiled
2018 Tops
10,000 | ADA
Title III4 of 6
Case 4:19-cv-01892-PJH
04/08/19
Page

[Graph: Top 10 States for ADA Title III Federal Lawsuits in 2017: CA 2751, FL
1488, NY 1023, UT 360, NV 276, CO 215, GA 187, PA 182, TX 129, NJ 108.]

https://www.adatitleiii.com/2019/01/number-of-ada-title-iii-lawsuits-filed-in-2018-tops-10000/

43a

3/5

4/3/2019

Number of ADADocument
Title III Lawsuits1-2
Filed inFiled
2018 Tops
10,000 | ADA
Title III5 of 6
Case 4:19-cv-01892-PJH
04/08/19
Page

The big news among the top three states is that New York displaced Florida as the second
busiest jurisdiction. Filings in New York more than doubled from 2017 to 2018 (1023 vs. 2338)
while the number of cases filed in Florida only increased from 1488 to 1941. The number of
lawsuits filed in California increased by 54% from 2751 in 2017 to 4249 in 2018. This recordbreaking California number does not even include the many state court filings which we do
not track.

[Graph: California, New York and Florida ADA Title III Lawsuits in Federal Court:
2013-2018: 2017: CA 2751, 2018: CA 4249, 2017: NY 1023, 2018: NY 2338, 2017:
FL 1488, 2018: FL 1941.]

https://www.adatitleiii.com/2019/01/number-of-ada-title-iii-lawsuits-filed-in-2018-tops-10000/

44a

4/5

4/3/2019

Number of ADADocument
Title III Lawsuits1-2
Filed inFiled
2018 Tops
10,000 | ADA
Title III6 of 6
Case 4:19-cv-01892-PJH
04/08/19
Page

What is driving the ADA Title III lawsuit explosion? We are still crunching the numbers but we
believe there were nearly 2000 federal lawsuits about allegedly inaccessible websites filed in
2018. There were very few of these cases before 2015. In addition, plaintiffs and their
attorneys branched out into suits about hotel reservations websites in 2018, further driving the
numbers. We also continue to see many lawsuits about physical access barriers.
A note on our methodology: Our research involved a painstaking manual process of going
through all federal cases that were coded as “ADA-Other” and manually culling out the ADA
Title II cases in which the defendants are state and local governments. The manual process
means there is the small possibility of human error, but we are confident in our process.

Copyright © 2019, Seyfarth Shaw LLP All Rights Reserved.

https://www.adatitleiii.com/2019/01/number-of-ada-title-iii-lawsuits-filed-in-2018-tops-10000/

45a

5/5

Case 4:19-cv-01892-PJH Document 1-3 Filed 04/08/19 Page 1 of 4

EXHIBIT 3

46a

Case 4:19-cv-01892-PJH Document 1-3 Filed 04/08/19 Page 2 of 4

2440 W. EL CAMINO RE AL

650-784-4002 TEL

SUITE 100

650-784-4041 FAX

MOUNT AI N VIEW, CA 94040

ROBINS KAP LAN.COM

March 18, 2019

Via Email and U.S. Mail

Kevin Tucker
Carlson Lynch Sweet Kilpela & Carpenter, LLP
1133 Penn Avenue, 5th Floor
Pittsburgh, PA 15222
Dear Mr. Tucker,
We are representing Expensify in regards to your February 27, 2019
correspondence. Please direct all future correspondence to me.
Expensify takes seriously the concerns that you have raised. Expensify will
continue to comply with all applicable laws and regulations that govern its
operations.
We have reviewed the applicable law, including the following cases which
establish that Expensify is already compliant with governing requirements. As
you know, the Americans with Disabilities Act (“ADA”) applies to “places of
public accommodation.” Robles v. Domino’s Pizza, LLC, 913 F.3d 898, 904 (9th Cit.
2019) (citing 42 U.S.C. § 12182(a)). As a company based in Oregon and
California, the governing law of the U.S. Court of Appeal for the Ninth Circuit is
clear that “places of public accommodation” are limited to physical places. Under
Ninth Circuit law, the ADA only covers “actual, physical places were goods or
services are open to the public, and places where the public gets those goods or
services.” Robles, 913 F.3d at 905 (citing Weyer v. Twentieth Century Fox Film Corp.,
198 F.3d 1104, 1113-14 (9th Cir. 2000)). That is, “some connection between the

47a

Case 4:19-cv-01892-PJH Document 1-3 Filed 04/08/19 Page 3 of 4

good or service complained of and an actual physical place is required.” Robles,
913 F.3d at 905 (citing Weyer, 198 F.3d at 1114).
Likewise, the law of the Third Circuit, where one of your clients resides,
requires a physical place for there to be a “place of public accommodation.” See,
e.g., Ford v. Schering-Plough Corp., 145 F.3d 601, 612-13 (3d Cir. 1998) (“The plain
meaning of Title III is that a public accommodation is a place…”); Peoples v.
Discovery Fin. Servs., 2010 U.S. App. LEXIS 14702, at *8 (3d Cir. 2010) (“Our court is
among those that have taken the position that the term is limited to physical
accommodations.”).
The above analysis is confirmed by the case cited in your letter, Andrews v.
Blick Art Materials, 286 F. Supp. 3d 365 (E.D.N.Y. 2017). That case confirms that the
“Courts of Appeals for the Third, Sixth, Ninth, and Eleventh Circuits hold that the
statute is unambiguous: ‘places of public accommodation’ are physical
structures.” Id. at 388.
Expensify offers its services exclusively through the Internet. Expensify
does not offer its services through physical stores. As such, Expensify does not
offer its services through “places of public accommodation,” as is required to state
a claim under the Americans with Disabilities Act.
Your letter offers no authority that the provisions of Pennsylvania and/or
California state law somehow override this governing federal law.

48a

Case 4:19-cv-01892-PJH Document 1-3 Filed 04/08/19 Page 4 of 4

Expensify takes serious its legal obligations and believes it is compliant
with applicable law.
Sincerely,
Steven C. Carlson

49a

Case 4:19-cv-01892-PJH Document 1-4 Filed 04/08/19 Page 1 of 4

EXHIBIT 4

50a

for Carlson
| Lex04/08/19
Machina
Case 4:19-cv-01892-PJH Summary
Document
1-4 Lynch
Filed
Page 2 of 4

4/5/2019

Courts & Judges

Counsel

Parties

Cases

Kevin Pasquinelli

Documents

Patents

Apps



×

Product Update: Report threshold increased from 2,000 to 150,000 cases and new Motions analytics tab added. Learn more in our Help Center.



Search all of Lex Machina












Carlson Lynch
Summary District Court Cases PTAB Trials
Delaware Court of Chancery Cases

Client List

District Court Judge Appearances

PTAB Judge Appearances

Cases Filed by Year (Top 6 by Focus Order)

Filings

30

20

10

0

<2009

2009

2010

2011

2012

2013

2014

2015

2016

2017

2018

2019*

 Antitrust

0

0

1

0

0

4

0

5

1

0

5

0

 Bankruptcy

0

0

0

0

0

0

0

1

0

0

0

0

 Contracts

0

1

1

3

1

3

13

7

6

5

7

5

 Copyright

0

0

0

0

0

0

0

0

0

0

0

0

 ERISA

1

2

0

0

0

0

0

0

0

1

1

0

 Employment

17

16

32

5

3

17

10

1

4

5

4

9

* 2019 numbers are year-to-date. Open dots are full-year estimates.

Cases by Type
Case Types
Antitrust
Bankruptcy
Contracts
ERISA
Employment
Insurance
Patent
Product Liability

Cases
16
1
52
5
123
2
2
27

Securities

6

Trade Secret

1

Trademark

3

All other Case Types have 0 results in this case list.
https://law.lexmachina.com/counsel/law_firm/2650300

51a

1/3

4/5/2019

for Carlson
| Lex04/08/19
Machina
Case 4:19-cv-01892-PJH Summary
Document
1-4 Lynch
Filed
Page 3 of 4

Top Clients by number of open cases
Party 

Law Firm's Cases 

Client Total 

%

Iron Gate Technology, Inc.

3

7

43%

Kathryn Scheller

3

7

43%

Nancy Thomas

3

11

27%

SAHARA LOGAN

3

3

100%

Amedius LLC

2

7

29%

American Electric Motor Services, Inc.

2

8

25%

Brett Watts

2

7

29%

CB Roofing LLC

2

7

29%

Credit Union National Association

2

2

100%

Danny J Curlin

2

7

29%

 See all clients

Top Courts
Court

Cases

Western District of Pennsylvania ( W.D.Pa. )

78

Eastern District of Pennsylvania ( E.D.Pa. )

16

Northern District of Georgia ( N.D.Ga. )

13

Northern District of California ( N.D.Cal. )

13

Central District of California ( C.D.Cal. )

13

Southern District of California ( S.D.Cal. )

12

Northern District of Ohio ( N.D.Ohio )

11

Middle District of Pennsylvania ( M.D.Pa. )

9

Northern District of Alabama ( N.D.Ala. )

7

Northern District of Illinois ( N.D.Ill. )

6

Cases by Role and Type
Plaintiff
Case Type

Defendant

Open

Total

Open

Total

12

15

0

0

0

1

0

0

Contracts

18

50

0

1

Copyright

0

0

0

0

ERISA

1

5

0

0

15

99

1

23

Insurance

0

2

0

0

Patent

1

2

0

0

Product Liability

5

22

0

4

Securities

3

4

0

0

Trade Secret

0

1

0

Antitrust
Bankruptcy

Employment

https://law.lexmachina.com/counsel/law_firm/2650300

52a

0
2/3

for Carlson
| Lex04/08/19
Machina
Case 4:19-cv-01892-PJH Summary
Document
1-4 Lynch
Filed
Page 4 of 4

4/5/2019

Plaintiff

Defendant

Case Type

Open

Total

Open

Total

Trademark

2

2

0

0

Referred to in Litigation
Below are some of the different ways Carlson Lynch appears in PACER. Lex Machina normalizes law
firm names so that all of a law firm's cases are grouped under a single name.
CARLSON & LYNCH
CARLSON LYNCH
Carlson Lynch
Carlson Lynch Kilpela & Carpenter
CARLSON LYNCH KILPELA & CARPENTER
Carlson Lynch Law Firm
CARLSON LYNCH PNC
CARLSON LYNCH SWEET & KILELA
Carlson Lynch Sweet & Kilpela
CARLSON LYNCH SWEET & KILPELA
Carlson Lynch Sweet & Kilpela & Carpenter
CARLSON LYNCH SWEET & KIPELA
Carlson Lynch Sweet & Kipela
Carlson Lynch Sweet & Kipela & Carpenter
CARLSON LYNCH SWEET KILEPLA & CARPENTER
CARLSON LYNCH SWEET KILPELA
Carlson Lynch Sweet Kilpela
Carlson Lynch Sweet Kilpela & Carpenter
Carlson Lynch sweet Kilpela & Carpenter
CARLSON LYNCH SWEET KILPELA & CARPENTER
CARLSON LYNCH SWEET KILPELA & CARPTENTER
Carlson Lynch Sweet Kilpela Carpenter
CARLSON LYNCH SWEET KIPELA & CARPENTER
Carlson Lynch Sweet Kipela & Carpenter
CARLSON LYNCH SWEET KIPELA CARPENTER
Carlson Lynch Sweet Lilpela & Carpenter
CARLSON LYNCH SWEET, KILPELA & CARPENTER
Carlson Lynch Sweet, Kilpela & Carpenter
Carlson Lynch Swet Kilpela & Carpenter
CARLSON, LYNCH LAW FIRM
Carlson, Lynch, Sweet & Kilpela
CARLSON, LYNCH, SWEET, KILPELA & CARPENTER
CarlsonLynch
CARSON LYNCH
Carson Lynch

https://law.lexmachina.com/counsel/law_firm/2650300

53a

3/3

Case 4:19-cv-01892-PJH Document 1-5 Filed 04/08/19 Page 1 of 5

EXHIBIT 5

54a

4/4/2019

Companies Face Document
Lawsuits Over Website
Accessibility
For Blind Users
- WSJ
Case 4:19-cv-01892-PJH
1-5 Filed
04/08/19
Page
2 of 5

This copy is for your personal, non-commercial use only. To order presentation-ready copies for distribution to your colleagues, clients or customers visit
https://www.djreprints.com.
https://www.wsj.com/articles/companies-face-lawsuits-over-website-accessibility-for-blind-users-1478005201

LAW

Companies Face Lawsuits Over Website
Accessibility For Blind Users
More than 240 businesses nationwide have been sued in federal court since the start of 2015

Legally blind para-athlete Juan Carlos Gil, seen here at a rowing training session in Miami in 2014, has sued more than 30
businesses this year claiming their websites aren’t accessible to the blind. PHOTO: LYNNE SLADKY ASSOCIATED PRESS

By Sara Randazzo
Updated Nov. 1, 2016 10 54 a.m. ET
The disability lawsuits started hitting the Pittsburgh federal courthouse last July, all claiming
corporations’ websites violated the law by not being accessible to the blind. The ﬁrst round
came against household names such as Foot Locker Inc., FL +0.55% ▲ Toys “R” Us, Brooks
Brothers Group Inc., and the National Basketball Association. Later suits targeted lesser-known
retailers including Family Video Movie Club Inc. and Rue21 Inc.
All told, about 40 nearly identical cases have landed in front of the same federal judge, Arthur
Schwab, all brought by one local law ﬁrm, Carlson Lynch Sweet Kilpela & Carpenter LLP.
Nationwide, more than 240 businesses have been sued in federal court since the start of 2015,
concerning allegedly inaccessible websites, according to law ﬁrm Seyfarth Shaw LLP. Most
settle quickly, for between $10,000 and $75,000, lawyers involved say, with the money typically
going toward plaintiﬀs’ attorneys’ fees and expenses.

https://www.wsj.com/articles/companies-face-lawsuits-over-website-accessibility-for-blind-users-1478005201

55a

1/4

4/4/2019

Companies Face Document
Lawsuits Over Website
Accessibility
For Blind Users
- WSJ
Case 4:19-cv-01892-PJH
1-5 Filed
04/08/19
Page
3 of 5

The suits named above have been dismissed, according to court dockets, which don’t reﬂect if a
private settlement was reached. Toys “R” Us said it is looking for ways to make its website more
accessible. The other companies had no comment or didn’t respond to a request for comment.
The Justice Department, which enforces the Americans with Disabilities Act, has delayed since
2010 releasing technical guidelines as to how websites should comply, most recently putting it
oﬀ until 2018. The delay has led to “complete mayhem,” said Minh Vu, a Seyfarth Shaw partner
who represents companies in disability-access cases.
A Justice Department spokesman declined to comment on the guidelines, but noted public
settlements the agency has reached with companies, including tax-preparation service H&R
Block and online grocer Peapod, requiring them to make websites accessible.
Disability-rights advocates and
plaintiﬀs' lawyers say the
litigation points to a real issue:
making sure those with
disabilities have the same
freedom to enjoy the internet as
everyone else.
“Blind people are not going to be able to thrive and live the lives they want to live if they don’t
have equal access to websites,” said Christopher Danielsen, spokesman for the National
Federation of the Blind. He said most websites have barriers for the blind, who rely on software
to read the content of webpages aloud. Such services can be free or cost upward of $1,000,
depending on the sophistication.
Defense lawyers and industry groups counter that while the underlying issues are important,
the suits are a legal-fee shakedown and don’t help improve accessibility. “You ﬁnd
entrepreneurial lawyers who are always looking for the next great cause of action,” said Steven
Solomon, a defense lawyer at GrayRobinson PA in Miami.
Public businesses have long been required to be accessible to the disabled under the ADA,
signed into law in 1990. Websites, however, weren’t expressly included in the law as a place of
“public accommodation.”

https://www.wsj.com/articles/companies-face-lawsuits-over-website-accessibility-for-blind-users-1478005201

56a

2/4

4/4/2019

Companies Face Document
Lawsuits Over Website
Accessibility
For Blind Users
- WSJ
Case 4:19-cv-01892-PJH
1-5 Filed
04/08/19
Page
4 of 5

Federal appellate courts have been divided on the issue, with some ﬁnding that all websites
must comply with disability standards, and others contending that websites only fall under the
ADA if they have a “nexus” to a brick-and-mortar business. Mr. Danielsen said there is no data
as to how many websites don’t accommodate blind users.
Miami-area resident Juan Carlos Gil, who is legally blind and wheelchair-bound because of
cerebral palsy, isn’t content to wait for the legal landscape to clear. Mr. Gil has sued more than
30 businesses this year alleging their websites violate the law, including women’s retailer
Anthropologie Inc., grocery chain Winn Dixie Stores Inc., and Burger King Corp. “These are big
corporations…that honestly they don’t care,” the 34-year-old said.
Winn-Dixie said it doesn’t comment on open litigation. Anthropologie and Burger King didn’t
respond to a request for comment.
Mr. Gil said he faces obstacles online 90% of the time. When websites aren’t coded correctly,
screen readers get stuck, simply saying “image” or “blank” aloud, without continuing across
the page. Proper headers and text embedded behind images help blind users navigate sites.
Retroﬁtting websites that aren’t built correctly can run into the tens of thousands of dollars or
more for companies, experts say.
A para athlete, Mr. Gil said he recently spent $200 on wheels for his racing wheelchair while
competing in London, only to later realize he had ordered the wrong item because the website
was diﬃcult to use.
Mr. Gil is represented by Miami attorney Scott Dinin, who has sued at least 108 mall retailers,
restaurants, banks and others during the past year in the Southern District of Florida. “All
we’re looking for is, are you going to be inclusive, or exclude people?” Mr. Dinin said.
He and other plaintiﬀs' lawyers, including Bruce Carlson of Carlson Lynch and C.K. Lee in New
York, are quick to note that the website suits aren’t big moneymakers, but decline to discuss the
economics.
For every company sued, several more receive letters seeking an out-of-court settlement.

A restaurant trade group recently alerted its members to a typical Carlson Lynch demand letter
that invites companies to call the law ﬁrm before hiring experts “to explore a far more costeﬀective and pragmatic approach to resolving these issues.” The letters include a report of red
ﬂags on a company’s website derived from a disability-access scanning program.
Mr. Carlson said his ﬁrm has sent “many hundreds of letters” and only targets larger
companies, because he believes that is more likely to make industries aware of the issues than
suing mom-and-pop businesses.
57a

https://www.wsj.com/articles/companies-face-lawsuits-over-website-accessibility-for-blind-users-1478005201

3/4

4/4/2019

Companies Face Document
Lawsuits Over Website
Accessibility
For Blind Users
- WSJ
Case 4:19-cv-01892-PJH
1-5 Filed
04/08/19
Page
5 of 5

Judges often push the lawsuits into mediation, which then are resolved in private settlements,
according to a review of nationwide court dockets. The settlements frequently include a
timeline in which a company agrees to improve its website and undergo future monitoring,
lawyers involved say, but some entail little more than paying attorneys fees. So far, the suits
primarily target websites, but lawyers expect claims against mobile applications could be on
the horizon.
Mr. Danielsen with the National Federation of the Blind said the organization has ﬁled some
lawsuits but prefers to work collaboratively with companies. “There are millions of websites,
literally,” he said. “Nobody is going to sue everybody.”
Write to Sara Randazzo at sara.randazzo@wsj.com

Copyright © 2019 Dow Jones & Company, Inc. All Rights Reserved
This copy is for your personal, non-commercial use only. To order presentation-ready copies for distribution to your colleagues, clients or customers visit
https://www.djreprints.com.

https://www.wsj.com/articles/companies-face-lawsuits-over-website-accessibility-for-blind-users-1478005201

58a

4/4

Case 4:19-cv-01892-PJH Document 1-6 Filed 04/08/19 Page 1 of 4

EXHIBIT 6

59a

4:19-cv-01892-PJH
Filed 04/08/19
2 ofID
4 #:30
CaseCase
2:16-cv-01438
DocumentDocument
1-2 Filed1-6
03/01/16
Page 1 of Page
3 Page

Exhibit 2
60a

4:19-cv-01892-PJH
Filed 04/08/19
3 ofID
4 #:31
CaseCase
2:16-cv-01438
DocumentDocument
1-2 Filed1-6
03/01/16
Page 2 of Page
3 Page

From: Greg Hurley [mailto:GHurley@sheppardmullin.com]
Sent: Monday, December 21, 2015 3:35 PM
To: BCarlson@CarlsonLynch.com
Subject: website claim by Carlson - response to Carlson

----------------------------------------------------------------------------------------------------

-----------------------------------------------------------------------------Bruce Carlson (BCarlson@CarlsonLynch.com)

Dear Bruce,
I was surprised when Harbor Freight sent me your demand letter regarding
the accessibility to their website. Your letter is identical to the ones you have sent
to many of my other clients. I note that you did not disclose the "claimant", nor
did you disclose what transactions they were unable to complete. It is impossible
for us to preserve records without this information. Also as you know your client’s
standing and the scope of their claim is dependent on their disability. Does this
hypothetical plaintiff need spoken text ? large font ? low contrast ? high contrast
? etc.
You appear to base your allegations on the an audit for compliance with
Section 508 of the Rehab Act. You won’t be surprised that Harbor Freight is not a
governmental contractor and therefore not subject to the Rehab Act. You also
assert that the WC3 / WCAG guidelines are mandated by the ADA. I think you also
61a

4:19-cv-01892-PJH
Filed 04/08/19
4 ofID
4 #:32
CaseCase
2:16-cv-01438
DocumentDocument
1-2 Filed1-6
03/01/16
Page 3 of Page
3 Page

know that is not true. If you are correct that such guidelines are mandatory, then
your firm’s website suffers the same alleged deficiencies that you claim to have
identified with Harbor Freight. I ran an audit Carlson Lynch website on WAVE
(checking for WCAG compliance) that shows that your website has “errors”. See
the screen shot above. I shouldn't have to remind you that law firms are
specifically identified in the ADA as " public accommodations" subject to the same
rules you assert apply to retailers. Does the record of the prior “errors” on your
website indicate that Carlson Lynch has a policy or practice of not maintaining an
accessible website?
Please disclose the specific transactions that your client could not
complete and provide screen shots of the code that created “barriers” for them
so we can respond to your demand for your fees for this hypothetical plaintiff.
You are also welcome to explain the WCAG errors and the even more extensive
Section 508 errors on your website.
Thanks
Greg Hurley
714.424.8205 | direct
714.428.5981 | direct fax
949.282.9530 | cell
GHurley@sheppardmullin.com

SheppardMullin
Sheppard Mullin Richter & Hampton LLP
650 Town Center Drive, 4th Floor
Costa Mesa, CA 92626-1993
714.513.5100 | main

www.sheppardmullin.com

62a

Case: 19-17320, 05/26/2020, ID: 11701531, DktEntry: 16, Page 42 of 77

63a

Case: 19-17320, 05/26/2020, ID: 11701531, DktEntry: 16, Page 43 of 77

64a

Case: 19-17320, 05/26/2020, ID: 11701531, DktEntry: 16, Page 44 of 77

65a

Case: 19-17320, 05/26/2020, ID: 11701531, DktEntry: 16, Page 45 of 77

66a

Case: 19-17320, 05/26/2020, ID: 11701531, DktEntry: 16, Page 46 of 77

67a

Case: 19-17320, 05/26/2020, ID: 11701531, DktEntry: 16, Page 47 of 77

68a

Case: 19-17320, 05/26/2020, ID: 11701531, DktEntry: 16, Page 48 of 77

69a

Case: 19-17320, 05/26/2020, ID: 11701531, DktEntry: 16, Page 28 of 77

70a

